Executive Report


Return to the USDOJ/OIG Home Page


Office of Community Oriented Policing Services
Grants to the Horsham Township, Pennsylvania
Police Department
GR-70-00-010
February 16, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Horsham, Pennsylvania Police Department (Horsham).  The purpose of the grants is to enhance community policing.  Horsham was awarded a total of $450,000 to hire six new police officers.
	
	We reviewed Horsham's compliance with seven essential grant conditions.  Our review disclosed that Horsham substantially complied with the grant requirements to:

maintain the required number of locally funded officer positions, 

	increase Horsham's police force by hiring the required number of grant-funded officers,

	provide necessary local matching funds,

	request reimbursement only for allowable costs,

	plan for the retention of officer positions, 

	perform the community policing activities stated in its grant application and deploy the required number of officers to community policing, and

	submit required program and financial reports.

However, we noted that Horsham did not submit the Department Initial Report. We also could not determine whether any of Horsham's financial status reports were submitted timely because the reports were not dated.  These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.